<html>
<title> - [H.A.S.C. No. 114-89] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2017 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED FOURTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                         [H.A.S.C. No. 114-89]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

       SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES HEARING

                                   ON

                    DEPARTMENT OF DEFENSE COUNTERING

                      WEAPONS OF MASS DESTRUCTION

                        POLICY AND PROGRAMS FOR

                            FISCAL YEAR 2017

                               __________

                              HEARING HELD
                           FEBRUARY 10, 2016

                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     


                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-956                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




























  


           SUBCOMMITTEE ON EMERGING THREATS AND CAPABILITIES

                  JOE WILSON, South Carolina, Chairman

JOHN KLINE, Minnesota                JAMES R. LANGEVIN, Rhode Island
BILL SHUSTER, Pennsylvania           JIM COOPER, Tennessee
DUNCAN HUNTER, California            JOHN GARAMENDI, California
RICHARD B. NUGENT, Florida           JOAQUIN CASTRO, Texas
RYAN K. ZINKE, Montana               MARC A. VEASEY, Texas
TRENT FRANKS, Arizona, Vice Chair    DONALD NORCROSS, New Jersey
DOUG LAMBORN, Colorado               BRAD ASHFORD, Nebraska
MO BROOKS, Alabama                   PETE AGUILAR, California
BRADLEY BYRNE, Alabama
ELISE M. STEFANIK, New York
                Katie Sutton, Professional Staff Member
              Lindsay Kavanaugh, Professional Staff Member
                          Neve Schadler, Clerk
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Ranking Member, Subcommittee on Emerging Threats and 
  Capabilities...................................................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Emerging Threats and Capabilities..............     1

                               WITNESSES

Hopkins, Dr. Arthur T., Performing the Duties of the Assistant 
  Secretary of Defense for Nuclear, Chemical and Biological 
  Defense Programs...............................................     4
Myers, Kenneth A., Director, Defense Threat Reduction Agency and 
  U.S. Strategic Command Center for Combating Weapons of Mass 
  Destruction....................................................     5
Smith, Dr. Wendin D., Deputy Assistant Secretary of Defense for 
  Countering Weapons of Mass Destruction.........................     6

                                APPENDIX

Prepared Statements:

    Hopkins, Dr. Arthur T........................................    29
    Myers, Kenneth A.............................................    36
    Smith, Dr. Wendin D..........................................    54
    Wilson, Hon. Joe.............................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Langevin.................................................    67
    Mr. Zinke....................................................    67

Questions Submitted by Members Post Hearing:

    Mr. Shuster..................................................    73
    Mr. Wilson...................................................    71





DEPARTMENT OF DEFENSE COUNTERING WEAPONS OF MASS DESTRUCTION POLICY AND 
                     PROGRAMS FOR FISCAL YEAR 2017

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
         Subcommittee on Emerging Threats and Capabilities,
                      Washington, DC, Wednesday, February 10, 2016.
    The subcommittee met, pursuant to call, at 3:36 p.m., in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON EMERGING THREATS AND 
                          CAPABILITIES

    Mr. Wilson. I call this hearing of the Emerging Threats and 
Capabilities Subcommittee of the House Armed Services Committee 
to order.
    I am pleased to welcome everyone here today for this very 
important and timely hearing on the Department of Defense, DOD, 
countering weapons of mass destruction, CWMD, policy and 
programs for the fiscal year 2017.
    The proliferation and potential use of weapons of mass 
destruction remains a grave and enduring threat. Adversaries of 
the United States continue to pursue weapons of mass 
destruction in an attempt to enhance their international 
influence and threaten the American people both at home and 
abroad.
    Recent media reports on the use of these weapons are 
widespread. They include news of Daesh's <dagger> use of 
chemical weapons in Iraq and Syria, revolutionary advances in 
biotechnology, and the continued nuclear weapon development of 
North Korea. These reports highlight the diverse and continued 
threats posed by weapons of mass destruction to the United 
States and our allies.
---------------------------------------------------------------------------
    <dagger> ``Daesh'' is an Arabic acronym for Islamic State of Iraq 
and the Levant, ISIL.
---------------------------------------------------------------------------
    The entire Department of Defense countering weapons of mass 
destruction enterprise is critical in preventing, protecting 
against, and responding to the weapons of mass destruction 
threats. While the Department of Defense has made many 
important contributions to national security over the last 
year, there are challenges to the countering weapons of mass 
destruction enterprise that still must be addressed.
    The inadvertent shipment of inactivated anthrax from the 
Dugway Proving Ground to 194 laboratories in all 50 States, the 
District of Columbia, 3 territories, and 9 foreign countries, 
has exposed scientific, institutional, and workforce problems 
that need to be addressed to prevent this from ever happening 
again.
    We also remain increasingly concerned about the 
proliferation of dual-use technologies that could potentially 
be used for WMD development activities. These dual-use 
technologies could make threats much more readily available to 
terrorist groups or even lone actors, domestically as well as 
abroad.
    So today we look forward to discussing the priorities for 
the Department of Defense to counter these evolving weapons of 
mass destruction threats for fiscal year 2017.
    We have before us a panel of three distinguished witnesses: 
Dr. Arthur Hopkins, performing the duties of the Assistant 
Secretary of Defense for Nuclear, Chemical and Biological 
Defense Programs; Mr. Kenneth Myers, Director of the Defense 
Threat Reduction Agency [DRTA] and U.S. Strategic Command 
Center for Combating Weapons of Mass Destruction; and Dr. 
Wendin Smith, Deputy Assistant Secretary of Defense for 
Countering Weapons of Mass Destruction.
    I would like to take this opportunity to recognize the 
outstanding service of Director Ken Myers, who will be moving 
on from the Defense Threat Reduction Agency next month. During 
his leadership as the longest-serving director in the history 
of the organization, the agency has expanded international 
operations, increased research and development cooperation, and 
transformed into a whole-of-government resource. Ken's 
contributions have been critical in safeguarding our Nation and 
our allies and we wish him best of luck in future endeavors.
    I would now like to turn to my friend and the ranking 
member, Congressman Jim Langevin of Rhode Island, for any 
comments he would like to make.
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 27.]

  STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE FROM 
RHODE ISLAND, RANKING MEMBER, SUBCOMMITTEE ON EMERGING THREATS 
                        AND CAPABILITIES

    Mr. Langevin. Well, thank you, Mr. Chairman.
    And I want to thank, thank you to all our witnesses for 
appearing before the subcommittee today to provide testimony on 
the fiscal year 2017 budget request for countering weapons of 
mass destruction and associated programs and policies.
    As we know, many state and non-state actors seek to 
develop, proliferate, acquire, or use weapons of mass 
destruction against our service members, allies, and innocent 
civilians overseas and here in the homeland.
    In late 2015, our subcommittee received a briefing from the 
intelligence community detailing the myriad WMD threats and 
associated actors. While I cannot go into details of that in 
this briefing, one needs to look no further than today's 
headlines outlining ISIL's aspirations to acquire and use 
chemical weapons, North Korea's provocative actions, and global 
impact of the Zika virus to understand how real chemical, 
biological, radiological, and nuclear threats are and how 
widespread their impact can be.
    Technological advancements often work in our favor, but 
they also work in our adversaries' favor. Today's hearing will 
provide insight on how we are investing in science and 
technology to provide better capabilities to our warfighter and 
shaping our approach to this threat.
    I support a robust S&T [science and technology] investment 
in the chem/bio defense programs and hope to learn today why 
that budget request has been decreased by approximately $30 
million compared to last year, while other S&T budgets in the 
Department have increased substantially.
    Equally important is reducing redundancy and achieving 
efficacy. For instance, a WMD situation awareness tool called 
Constellation is being prototyped, yet it remains unclear 
exactly how this program differs from others being used today 
and in development.
    Last week, the subcommittee heard from the Blue Ribbon 
Panel on their biodefense report. I found many of the findings 
and recommendations thought-provoking and look forward to 
hearing the Department's feedback. I would like to note, 
however, that many of the recommendations can and should also 
be applied to the chemical, nuclear, and radiological 
enterprise as well.
    I have long been an advocate also for cybersecurity. I 
believe that cybersecurity must be a key component of all 
strategies and was pleased to see that the panel included 
recommendations pertaining to the management of cyber threats 
to pathogen and biological information. Again, I would stress 
this recommendation should be applied across the enterprise.
    With respect to the Department's inadvertent shipment of 
anthrax, I expect to learn more about the scientific, 
institutional, and cultural changes being implemented within 
the Department as a result of the lessons that we have learned 
from this serious incident.
    Finally, although the authority is not just overseen by 
this subcommittee, I wanted to close by expressing support for 
the cooperative threat reduction program. Biological agents, 
once released, know no boundaries. ISIL has freedom of movement 
across large swaths of the Middle East, near our allies like 
Jordan and near where our troops are stationed.
    Improving our foreign partners' capability to secure and 
dispose of WMD materials is in the best interests of our 
troops, our allies, innocent civilians, and ultimately the 
homeland.
    The witnesses' testimony provides examples of the 
contributions to national security that have been made under 
this program. And I look forward to hearing more.
    There is no one more familiar with this authority than 
Director Myers.
    And like the chairman I want to congratulate you on all 
your accomplishments and on your new endeavors.
    He has led the Defense Threat Reduction Agency through 
extraordinary times, during which we have seen the destruction 
of serious chemical weapons aboard a ship, among other 
milestones.
    And Director Myers, let me say that you will certainly be 
missed. I also say that I have had the opportunity to have you 
testify before both this subcommittee, as well as the 
Intelligence Committee, as well as the Homeland Security 
Committee, and your contributions have always been well 
received and insightful. So, with that, I thank you for your 
service.
    And with that, Mr. Chairman, I want to thank our panel for 
appearing before us today, and thank you for all the work you 
that do to protect our Nation, our partners, and our service 
members. Thank you very much.
    And with that, I yield back.
    Mr. Wilson. Thank you, Ranking Member Langevin.
    And our format today, each of you, we look forward to your 
testimony. When that concludes, we will begin rounds of 
questioning at 5 minutes each, strictly enforced by Jackie 
Sutton. And then remarkably enough we might even have time and 
what you are dealing with is so important to all of us that we 
could actually have a second round.
    And so we will begin with Dr. Hopkins.

 STATEMENT OF DR. ARTHUR T. HOPKINS, PERFORMING THE DUTIES OF 
 THE ASSISTANT SECRETARY OF DEFENSE FOR NUCLEAR, CHEMICAL AND 
                  BIOLOGICAL DEFENSE PROGRAMS

    Dr. Hopkins. Chairman Wilson, Ranking Member Langevin, and 
distinguished members of the subcommittee, I appreciate this 
opportunity to testify on the Department's efforts to counter 
the threats posed by weapons of mass destruction, and to 
provide context for the President's fiscal year 2017 budget 
request.
    Our budget request includes resources to reduce threats and 
protect warfighters in several areas. The chemical and 
biological defense program budget request will continue the 
development of capabilities to protect against chemical, 
biological, and radiological threats.
    Our chemical demilitarization program will continue to 
ensure the safe, complete, and treaty-compliant destruction of 
the United States' chemical weapon stockpile.
    Our nuclear matters resources will support the development 
of policies that guide the safety and security of the Nation's 
nuclear deterrent and help to counter threats of nuclear 
terrorism and proliferation.
    The Defense Threat Reduction Agency budget request includes 
resources to address the full spectrum of WMD-related threats, 
including cooperative threat reduction programs, and support to 
combatant commands.
    Finally, our countering weapons of mass destruction systems 
program will enhance situational awareness of WMD activities 
globally.
    The chemical and biological defense program includes 
research, development, testing, and fielding of medical 
countermeasures, that is advanced vaccines and therapeutic 
drugs. It includes advanced diagnostics, environmental 
detection, protective equipment, and hazard mitigation 
capabilities.
    In domestic chemical demilitarization, the Department 
continues to make significant progress in meeting the Nation's 
commitments under the Chemical Weapons Convention by 
eliminating our remaining chemical weapons stockpiles in 
Colorado and Kentucky. In March 2015, the Department started 
agent destruction operations at the Pueblo, Colorado, site. At 
Bluegrass, Kentucky, facility construction is complete and 
destruction systems are being tested.
    With respect to nuclear threats, the Department works with 
other departments and agencies to strengthen the Nation's 
capability to detect and respond to nuclear proliferation. The 
Cooperative Threat Reduction's [CTR] global nuclear security 
program establishes and maintains nuclear security cooperation 
with several countries.
    With respect to this Nation's nuclear stockpile, the 
Domestic Nuclear Weapons Accident Incident Exercise program 
continues as the premier interagency training event. It 
enhances the whole-of-government ability to maintain the 
security of our nuclear weapons.
    The Department's Cooperative Threat Reduction program and 
capacity-building efforts help to identify potential threats 
globally and they enable early actions that will prevent or 
mitigate them. The CTR program's effectiveness was most 
recently highlighted by its contribution to the timeline 
confirmation of the first resurgent case of Ebola.
    The Department maintains strong relationships with allied 
nations to help reduce biological threats.
    The countering weapons of mass destruction systems 
portfolio is leading the development of situational awareness 
information system called Constellation. That system will 
enable the consolidation, the analysis, and the sharing of 
timely and relevant information.
    Constellation is being developed by Defense Threat 
Reduction Agency with support from Defense Intelligence Agency 
[DIA]. It will support analysis, planning, and decision-making 
by the combatant commands and their interagency and 
international partners. Our 2017 budget request includes 
resources to take Constellation from development to an 
operational prototype.
    The Department's countering WMD activities support a broad 
spectrum of activities that help reduce threats from weapons of 
mass destruction. We strengthen program effectiveness and 
ensure efficiencies by acting in collaboration and coordination 
with numerous interagency and international partners.
    The President's 2017 budget request will enable us to 
continue to perform that mission effectively.
    Thank you again for this opportunity to testify today.
    [The prepared statement of Dr. Hopkins can be found in the 
Appendix on page 29.]
    Mr. Wilson. Thank you very much, Dr. Hopkins.
    We now proceed with Mr. Myers.

    STATEMENT OF KENNETH A. MYERS, DIRECTOR, DEFENSE THREAT 
    REDUCTION AGENCY AND U.S. STRATEGIC COMMAND CENTER FOR 
             COMBATING WEAPONS OF MASS DESTRUCTION

    Mr. Myers. Chairman Wilson, Ranking Member Langevin, and 
members of the subcommittee, it is an honor to be here today to 
share with you the work we do to make the world safer by 
countering the threats posed by the proliferation and use of 
weapons of mass destruction.
    The Defense Threat Reduction Agency is a unique place with 
a broad portfolio. In fact, the vast majority of the activities 
that my colleagues beside me will discuss today are carried out 
by DTRA. We have a rich history. Our roots go back to the 
Manhattan Project where we provided expertise of analyzing 
weapons' effects, work that we still do today.
    DTRA was created because of the existential threat posed by 
weapons of mass destruction. The consequences of a major attack 
on our country are almost unimaginable with potentially 
devastating impact. Those who wish to harm us understand that 
the use of such weapons could result in immense loss of life 
and enduring economic, political, and social damage on a global 
scale.
    As a defense agency, DTRA reports to Under Secretary Frank 
Kendall in providing research and development and capabilities. 
As a combat support agency, DTRA is under the control of the 
Chairman of the Joint Chiefs and provides direct support to 
combatant commanders and the services.
    Our expertise spans the full WMD threat spectrum: chemical, 
biological, radiological, nuclear [CBRN] weapons, and high-
yield explosives. We are a one-stop shop, open 24 hours a day 
to support the warfighter and the rest of the interagency. We 
are the only U.S. Government entity with this type of unique 
concentration and this critical mission area.
    Terrorists have clearly demonstrated that they will use any 
weapons or materials at their disposal. And for them, no 
targets are off limits. In addition, WMD-related events are 
occurring more often and in real time. While not an attack, the 
most recent example of this was the Ebola outbreak. The panic 
caused by Ebola was not just felt in Africa. The outbreak 
raised legitimate concerns all over the world.
    In the United States, there was a nonstop news cycle 
persisting for months and genuine fear in our communities. And 
the United States only had four confirmed cases. Now, just 
imagine if the outbreak hadn't been controlled or if we had 
been dealing with a new, genetically modified biothreat.
    Nearly every year, we face a new WMD-related crisis: 
Fukushima, Libya, Syria, Ebola. We cannot easily plan or budget 
for these types of situations. This requires us to surge our 
efforts and reprioritize resources. Thankfully, the unique 
authorities and funding that Congress provides to us each year 
allows us to respond to these challenges.
    Thank you for the opportunity to be here, and I look 
forward to your questions.
    [The prepared statement of Mr. Myers can be found in the 
Appendix on page 36.]
    Mr. Wilson. Thank you very much, Director Myers.
    We now proceed to Dr. Smith.

STATEMENT OF DR. WENDIN D. SMITH, DEPUTY ASSISTANT SECRETARY OF 
       DEFENSE FOR COUNTERING WEAPONS OF MASS DESTRUCTION

    Dr. Smith. Chairman Wilson, Ranking Member Langevin, 
members of the subcommittee, thank you for the invitation to 
testify today. I am honored to be here with Dr. Hopkins and 
Director Myers to present the Department's approach.
    In line with our 2014 strategy for countering WMD, my 
office develops policy and guidance, supports and coordinates 
interagency initiatives, and contributes to international 
efforts focused on the three pillars of that strategy: The 
first is preventing acquisition of WMD; second, containing and 
reducing those threats; and third, maintaining our capabilities 
to respond. Underpinning each of those is a constant cycle of 
preparation.
    Today's complex security environment has made countering 
WMD threats ever more challenging and multidimensional. We face 
threats from state and, increasingly, non-state actors, who 
have access to knowledge and emerging technologies. It is 
critical to prepare for these emerging challenges, including 
WMD threats that evolve from advances in some of those areas, 
such as synthetics, cyber tools, unmanned systems, and additive 
manufacturing. We must continually exercise flexibility and 
creativity in our approaches.
    Ensuring that those who do not currently have WMD 
capabilities do not obtain them is a key component of our 
counter-WMD effort. As we have heard today, based on available 
information we believe that the Islamic State of Iraq and the 
Levant was responsible for some of the alleged attacks using 
sulfur mustard in the past year.
    We have been working proactively with our allies and 
partners to deny ISIL or its affiliates and other non-state 
actors with access to any of these CBRN materials. The 
international coalition combating ISIL will consider all 
elements of power to pursue those who use any of these CBRN 
capabilities.
    We also work with our allies and partners to strengthen the 
security of materials that are at risk of theft or diversion. 
And through the CTR, Cooperative Threat Reduction program, we 
have had a decades-long track record of working successfully 
with foreign partners to destroy WMD, to make those materials 
more difficult to acquire, and to detect and interdict 
dangerous components and materials.
    In line with our strategy, CTR has evolved from a focus on, 
initially, efforts in the former Soviet Union to now a response 
from this emerging threat environment.
    We also work closely with our partners in the Department of 
State to support international regimes, such as the 
Nonproliferation Treaty, the Biological Weapons and Toxins 
Convention, the Chemical Weapons Convention and, clearly, the 
Proliferation Security Initiative now in its 13th year.
    So despite our best efforts to prevent actors from 
obtaining WMD, we must nevertheless contend too often with 
reducing and containing those threats. Here we look often to 
CTR which, again, has had great successes in working with 
partners. Some examples in the past year, Ukraine, Jordan, 
Lebanon, and other important areas.
    Also consistent with our strategy, we assist partners in 
proactively confronting emerging threats in regions that are 
also of emerging concern. One of those is North Africa. In 
response to the use of chemicals as weapons in both Iraq and 
Syria, coupled with growing encroachment of extremist groups, 
we have initiated proliferation prevention programs in 
cooperation with the Government of Tunisia and plan to 
implement a border surveillance system along its most 
vulnerable areas in fiscal year 2017.
    Ultimately, it is not enough to prevent, reduce, and 
contain the WMD, we also must be prepared to respond. We will, 
therefore, continue to work with our partners, both 
internationally and domestically, to manage and respond to 
threats from North Korea and will remain vigilant in supporting 
interagency efforts to monitor and prevent Iran from acquiring 
WMD material.
    Complementing these efforts is the CBRN Preparedness 
Program, or CP2 program, which works with partner nations to 
respond to and mitigate the effects of a CBRN incident.
    In fiscal year 2015, the DOD program provided response 
training and equipment to civilian and military first 
responders in a number of countries. And as we look forward to 
the next year, we will continue to improve WMD preparedness and 
response capabilities of key partners whom we identify 
collaboratively with the combatant commanders and the 
Department of State.
    So despite the progress I have described here, we can't be 
complacent. We continue to adapt and respond to those static 
and emerging threats. And we must continue to anticipate those 
threats, again, from both state and non-state actors.
    So as we move forward, your continued support for and 
funding in these areas will be critical to our ability, and we 
appreciate your support. Thank you.
    [The prepared statement of Dr. Smith can be found in the 
Appendix on page 54.]
    Mr. Wilson. Thank you very much, Dr. Smith.
    We now will proceed to have a round of questions, beginning 
with myself.
    And Mr. Myers, later this year the Joint Improvised-Threat 
Defeat Agency [JIDA] will transition under the authority, 
direction, and control of the Defense Threat Reduction Agency. 
Can you provide an update on the status of this transition 
plan? How do you plan to maintain the important expertise in 
counter-improvised explosive devices through the transition?
    Mr. Myers. Well, thank you, Mr. Chairman. Yes, as you 
explained, the Joint Improvised-Threat Destruction Agency will 
move in and come in under the Defense Threat Reduction Agency.
    Lieutenant General Michael Shields is the director of JIDA 
at this time. He and I have been working very carefully and 
closely together. We have very specific orders and instructions 
from Under Secretary Kendall, and that is to ensure that the 
counter-WMD space and the counter-improvised threat reduction 
space continue to succeed at the rate they have been succeeding 
in the past.
    In other words, he expects both to take full advantage of 
the benefits and the potential coordination and complementary 
nature of some of the aspects of the two mission areas. He 
expects us to be advancing both of these missions.
    Right now, we are looking very carefully at opportunities 
where the two organizations might come together and integrate. 
But we are taking a very slow process. We want to make sure 
that each step we take is complementary to both mission areas.
    There may be areas that cannot be brought in together, and 
we want to make sure that those areas are preserved to ensure 
that the warfighter continues to receive the outstanding 
service in both the counter-WMD, as well as the counter-
improvised-threat device arena.
    And we are confident with the process that we have in place 
we will reach such a place.
    Mr. Wilson. And I want to thank you. Actually, personally, 
my oldest son conducted cross-country convoys in Iraq. And so, 
I know firsthand how important your efforts have been.
    Dr. Smith, there has been a lot of discussion about the 
fact that biotechnology is widely proliferated now, which could 
make biothreats much more readily available to terrorist groups 
or even lone actors domestically, as well as abroad. And I am 
particularly concerned with the occupation for almost 2 years 
now of such a large city as Mosul with a million people, that 
there are laboratories that could be easily used to create 
weapons of mass destruction. How does this change of strategy 
affect our ability to protect the American people from 
biothreats?
    Dr. Smith. Thank you for the question, and an excellent 
one. Clearly, our strategy, which I referred to at the 
beginning of my remarks, is designed to account, again, for 
both state and non-state actors, any lone actor ideally in that 
mix as well, although it gets much harder at that end of the 
spectrum.
    So again, we foremost focus on preventing acquisition from 
the start. So, in the case of these international partners 
where our efforts focus, that is the most important step is 
preventing the acquisition at the beginning of either the 
materials or the know-how.
    So both being aware of where those capabilities exist and 
then having collaborative partnerships with entities within 
those countries that are cooperative through our CTR programs 
is critical. And again, anticipating that that may not always 
succeed, particularly in these cases of a non-state actor, we 
have to be better prepared than to contain and then respond to 
a threat should it exist.
    So, that is where, again, the programs we have support the 
detection, surveillance, information sharing, active engagement 
with our partners in countries such that we can better be aware 
of an evolving threat.
    But it is certainly, as I made in my opening remarks, a 
mounting challenge. The spread of technology and the 
accessibility of that technology, and thus no longer even, to 
use your example of Mosul, the need for a specific site, but 
the ability to acquire that knowledge anywhere is a mounting 
challenge.
    Mr. Wilson. And I appreciate you referenced efforts to deny 
Iran the ability to secure weapons of mass destruction. But how 
is that going to be achieved with the financial resources that 
they have now? I am just very concerned.
    Dr. Smith. So, the agreement that we have in place is 
certainly the most robust, peacefully negotiated agreement we 
have ever had specific to their nuclear program. What that does 
give us is the ability to engage with Iran, which is important. 
And again, I think goes to the initial prevention side of our 
strategy, which is to prevent any nation or any actor from 
acquiring WMDs.
    So the transparency and engagement that we will now have 
should be helpful. But it certainly will require vigilance 
continued from our intelligence community, all of our partners 
in the region, and certainly the Department of Defense as well.
    Mr. Wilson. Well, I am concerned is they have continued 
with intercontinental ballistic missile development, that they 
are just simply not trustworthy.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And again, I want to thank our witnesses for the testimony 
today.
    As I mentioned in my opening statement, I would like to 
hear more about the scientific, the institutional, and the 
cultural changes that the DOD is developing and implementing in 
response to the inadvertent anthrax shipments.
    Could you speak more to these changes and the lessons 
learned here?
    Dr. Hopkins. Thank you very much. I would be glad to start 
to address that.
    First of all, let me say that the anthrax incident is 
something that shouldn't have happened and it is something that 
we have to make sure never happens again. And in order to do 
that, we do have to make those changes you just talked about.
    Starting with the technical side of things, it has been the 
findings of at least two investigations now that what was 
needed was a stronger scientific basis underpinning the 
inactivation protocols for anthrax. And in fact, we have put 
into effect now research studies that will add that scientific 
rigor to understand what it takes to inactivate the anthrax 
spore.
    The second part of the technical, again there were several 
technical pieces to this, but the second most important part of 
the technical investigation had to do with the detection of 
viability. Because it is one thing to inactivate the spore, you 
also have to be able to confirm that these spores have been 
inactivated.
    And so, the viability testing protocols are another part of 
the research that we have put into effect in the chemical/
biological defense program. And those will be applied only 
after they have been internally reviewed and externally 
reviewed by an independent scientific committee so that we can 
make sure they have the technical integrity that will enable 
that kind of research to continue.
    Institutionally, the Army's Biosafety Task Force was not 
able to identify a specific person who was responsible for a 
specific action that caused the anthrax incident. However, they 
did uncover a number of cultural issues that really do need to 
be addressed, starting with what they characterized as 
complacency among the scientific and the managerial staff.
    In other words, there were indications that there were 
issues with the science and the staff was accused of being 
relatively complacent by not more aggressively addressing those 
things, those things that were uncovered.
    And so, I think that a combination of replacing some of the 
technical members, replacing the managerial members, some, as 
well as instituting a culture of accountability and technical 
integrity will go a long way. And I think it is our 
responsibility to help make sure that those are actually 
accomplished.
    Organizationally, the United States Army has stepped up and 
they have been identified, they have been tagged as the 
executive agent for biosecurity in the Department. And that 
responsibility is going to fall under the Surgeon General of 
the Army.
    And so, things are being reorganized such that the direct 
oversight of biological safety in the laboratories will be 
overseen by the Office of the Surgeon General.
    Mr. Langevin. Very good. Those are positive changes in the 
right direction, and I hope they will continue as such because 
this is too serious an issue not to do that.
    Also, as I mentioned in my opening statement, I support the 
Blue Ribbon Panel's recommendations on strengthening 
cybersecurity on systems with biological pathogen information. 
What is the Department's thought on this issue? And what steps 
is the Department taking to secure its systems?
    Mr. Myers. Thank you, Congressman. I had the opportunity to 
watch the hearing that our former colleague Gerry Parker 
appeared at. And I have to be honest, I agreed with much of 
what Gerry had to say.
    This recommendation in particular is obviously one that we 
are taking very, very seriously. It is one the Department has 
taken seriously overall, even beyond the chem/bio defense 
program in an extremely serious manner. A very large portion of 
this year's budget is dedicated to cyber defense and the like.
    I do not have numbers here in front of me today to share 
with you specifically in relation to your question. But if 
given the opportunity, I would like to come back to you and to 
the other members with specific answer in terms of the amount 
of resources being put towards this issue.
    [The information referred to can be found in the Appendix 
on page 67.]
    Mr. Langevin. Yes, I would very much like to see that 
followup, so thank you for that. And I look forward to the 
followup.
    My time is expired. I have other questions.
    But at this point, I will yield back, Mr. Chairman.
    Mr. Wilson. Thank you, Congressman Langevin.
    We now proceed to Congressman Rich Nugent of Florida.
    Mr. Nugent. Thank you, Mr. Chairman.
    I appreciate the panel's attendance today.
    The Blue Ribbon Study Panel on biodefense made several 
recommendations, one of which was to enhance public/private 
partnership in medical countermeasure development. If you 
could, please discuss DOD's larger plan to incorporate the 
study panel's findings, as well as touch upon the specific 
medical countermeasure issue, if you could, please.
    Dr. Hopkins. Thank you very much for the question.
    First of all, let me say that I have read, we have read the 
Blue Ribbon Panel's report, and every one of the 33 
recommendations is a positive step in the direction of 
strengthening biodefense.
    In discussion with our staff, we have identified a number 
that we have already started to step out on. And in particular, 
we were quite pleased to see the stress on medical 
countermeasure development. It is obviously something the 
Nation needs and it is very important to the Department of 
Defense.
    There were a number of recommendations in there that also 
talk about interagency collaboration. And that, again, is 
something that is born out by recent experience with Ebola and 
others. That is something that can only do good things for the 
enterprise.
    Another area that we thought was especially helpful was a 
recommendation for rapid point-of-care diagnostics, something 
that, again, will speed up the process of recovery.
    But one of the things we are doing in the Department in 
order to come up with novel and agile manufacturing techniques 
is establishing an advanced development and manufacturing 
capability to address those things that are particular to the 
Department of Defense. And we think that will help a lot in the 
direction of implementing some of the panel's recommendations.
    Most importantly, though, I think, is the interagency 
collaboration. I think that what they essentially called for 
was for agencies, organizations who all have a stake in the 
biodefense field to collaborate and cooperate much more 
closely. And I think if we all take that seriously, I think we 
can strengthen the biodefense enterprise.
    Mr. Myers. If I could add on to Dr. Hopkins's answer, you 
know, two of the specific recommendations, obviously the 
public/private partnerships, but also the time in between 
events, between an Ebola outbreak and things like that, that 
was the opportunity for us to make significant progress in 
these areas.
    And I will give you one example where I think we are 
already making good use of the recommendations that came from 
the Blue Ribbon Panel, and that is in regard to Ebola.
    Prior to the Ebola outbreak, the Defense Threat Reduction 
Agency had spent over $300 million in vaccine treatment 
research and development. So we had put the resources forward. 
Those resources went towards building a partnership. The first 
one was with a small corporation in California called the Mapp 
Corporation. And they developed one of the drugs that is being 
tested right now in West Africa called ZMapp, and it is doing 
very, very well.
    And the third leg of that stool, if you will, was the 
Government of Canada who was also involved in terms of bringing 
important technology, technological contributions to what 
became ZMapp.
    So I share that example with you as we completely concur 
with the example that you laid out there and we are trying to 
apply those things daily in approaching and responding to these 
difficult biological threats.
    Mr. Nugent. One of the recommendations I believe from that 
panel was also to invest more in medical countermeasures. Are 
we doing that? Are we investing more or are we staying status 
quo?
    Dr. Hopkins. Since the report just came out----
    Mr. Nugent. I realize that.
    Dr. Hopkins. Certainly our emphasis is going to be to 
invest more, I just can't say how much at this point. But given 
the stress that the Blue Ribbon Panel put on it and given the 
lessons learned from Ebola, our emphasis will be on putting 
more money into that area.
    Mr. Nugent. Obviously, there are things popping up all the 
time, Zika virus down, you know, in the Caribbean is a threat, 
at least it will be a threat to Florida, and we are concerned 
about that obviously. And what a great, if you could weaponize 
that. I mean, what it does to newborns, infants is 
unbelievable.
    So I think, Mr. Chairman, I appreciate the time. My time is 
almost expired.
    I want to thank the panel. Thank you very much.
    Mr. Wilson. Thank you, Sheriff Nugent.
    We now proceed to Congressman Brad Ashford of Nebraska.
    Mr. Ashford. Thank you for this.
    And thank all of you.
    And I appreciate the comments about Ebola. Obviously, the 
University of Nebraska Medical Center [UNMC] was a major 
player, in fact it has the largest bio-containment unit in the 
Ebola area.
    And to Congressman Nugent's point about public/private 
partnerships, UNMC continues to grow its efforts and bringing, 
expanding the training center and has a desire to continue to 
expand it.
    And it is interesting, going back to Dr. Phil Smith, who 
actually developed the idea of bio-containment at UNMC 12 years 
ago and then working on it for a period of 10 years, and then 
the Ebola crisis hit we were ready to go and those patients 
were brought to UNMC.
    The city of Omaha and the State of Nebraska participated in 
making sure that, you know, on the fly we were able to put 
procedures in place to get those patients to UNMC. And in all 
but one case we were successful in bringing them back. So, I 
think there were a lot of lessons there.
    You mentioned training. Would you comment, either of you, 
any of the three of you, comment on I agree that training is 
very important in all medical facets, how is that in practice 
going to work? We need to be able to train a lot more people to 
deal. And the Ebola crisis did sort of highlight sort of the 
lack of training that was immediately available, but that is 
now beginning to become available.
    So how do we enhance that training as we move forward? 
Whomever would like to respond.
    Mr. Myers. So, I will take a first stab at it and then let 
my colleagues add onto it. I think there are two ways to look 
at training. I think, obviously, first and foremost, I think 
this is what you are referring to, Congressman, is the domestic 
training. How do we help prepare first responders, hospital 
staffs, civil support teams, National Guard, if you will, those 
who will be responding, how do we prepare them for this 
eventuality or possibility, if you will?
    On the other side of the equation is, what can we be doing 
overseas to train partners and allies to be better able to deal 
with these threats as far from American shores as possible?
    In both of these areas, the Defense Threat Reduction Agency 
is playing a role. We are providing training, we are providing 
advice, we are providing subject matter expertise to a lot of 
these entities who would be involved in first response.
    Organizations and hospitals like the University of Nebraska 
are true gems. I mean, that is what is going to be required in 
some of these events. And given my relationship and 
participation in the STRATCOM [U.S. Strategic Command] chain of 
command, I am well aware of what a jewel you have there in 
Nebraska.
    But the other side of the equation is, what can we be doing 
today to help prepare our partners and allies to detect, 
potentially help begin to respond to these outbreaks overseas?
    You know, one of the things I think we learned from the 
Ebola outbreak is that the more we are able to help prepare 
those first responders, those hospital staffs, give them the 
tools that they need to detect and begin to work on it, the 
better off we are going to be here. So, I think it is a two-
phased approach.
    Mr. Ashford. Yes?
    Dr. Smith. If I could just add on and echo everything that 
Director Myers offered, but also would highlight the important 
work of the Global Health Security Agenda which has brought 
together now 50 nations across the globe, an excellent effort 
at getting, again, across first responders, military, and so 
on.
    So it is not just a DOD initiative, but a Presidential 
initiative initially, to bring those countries together to meet 
health regulations, to identify training gaps, which then 
enable us to identify whether the United States could 
appropriately fill that gap, a different partner, and looking 
to regional models where we can draw on our regional strengths 
to also address some of the concerns that have arisen.
    So it does take it away from our borders where possible, 
but is also now a global effort, which is fantastic.
    Mr. Ashford. Yes, sir, Doctor?
    Dr. Hopkins. I would just like to add that the Department 
of Defense will bring very important and very effective 
training capabilities, both domestically as well as 
internationally. I think one of the key lessons learned from 
the Ebola experience, though, is that it takes multiple 
agencies and it takes a lot of collaboration. So, our 
partnering with the Department of Health and Human Services 
will be essential in order to make sure that that training is 
as widespread and as effective as it can be.
    Mr. Ashford. Sir?
    Mr. Myers. Congressman, one last thing to add. When I 
started in this position 6\1/2\ years ago, and you had told me 
one of the most important relationships and valuable 
relationships and closest relationships that I would have is 
with the director of the Centers for Disease Control [CDC], I 
wouldn't have believed it. But I think that the events and the 
threats that we are dealing with today has driven that into 
reality.
    And Tom Frieden and I are in contact on a regular basis to 
make sure that DTRA and the CDC are working hand-in-glove in 
unison to make sure there is no overlap and there is no gap and 
that we are complementary.
    Mr. Ashford. Thank you. And I do appreciate the fact that 
the Congress put language in the omnibus that expanded the 
reach of some of these efforts. So, thank you very much.
    Mr. Wilson. Thank you, Congressman Ashford.
    We now proceed to Congressman Trent Franks of Arizona.
    Mr. Franks. Thank you, Mr. Chairman.
    And thank all of you for being here today.
    It is always encouraging when we are able to speak to 
people who have kind of a comprehensive view of some of these 
things.
    And I guess my first question, I know you have talked a lot 
about some of the chemical and biological considerations, that 
will be my second question, but my first question is related 
to, what area of nuclear proliferation gives you the most 
concern, you know, I guess, a wrong that might gain a 
capability to potentially utilize even a nascent nuclear 
capability for EMP [electromagnetic pulse] attacks or something 
along those lines?
    In terms of the nuclear issues out there, Pakistan, 
whatever it might be, tell us what you think, and I will start 
with you, Dr. Hopkins, what is the area of greatest concern to 
you that could translate to be dangerous to our country?
    Dr. Hopkins. Thank you for that question. The thing that 
would keep me awake at night is being able to detect the fact 
that nuclear proliferation is happening in the first place.
    Proliferation of the technologies, proliferation of the 
materials is something that we have to be on top of. And given 
the knowledge that has been proliferated and given the fact 
that there are multiple places where there are materials out 
there, I think first and foremost we have to have the ability 
to be able to detect the action of proliferation right from the 
outset.
    Mr. Franks. Any area of special concern? Any state or non-
state actor that has you most concerned?
    Dr. Hopkins. Well, at this point, given what is in the 
headlines, it would be North Korea.
    Mr. Franks. Mr. Myers.
    Mr. Myers. Thank you, Congressman. For me, I would say it 
is the intersection of nuclear weapons and fissile materials 
with terrorist organizations. That, to me, is an absolute 
crucial problem because, A, it is very difficult to determine 
who got it, how they got it, where they got it from, where they 
might be taking it.
    There is no known source or location, capital or what have 
you. That would be my answer to the question.
    Mr. Franks. Dr. Smith.
    Dr. Smith. Sir, mine probably is a combination of the three 
in the sense that I do believe from a state perspective North 
Korea represents the greatest threat. We have seen just 
provocative, destabilizing actions across that nuclear 
portfolio, most recently, and even over the past many years, as 
you are well aware.
    But particularly to Dr. Hopkins's point, North Korea is 
also a known proliferator. So, to the extent that some of the 
initiatives, the Proliferation Security Initiative, other 
regimes can both be aware of those activities and prevent them 
or detect them or detect activities even within North Korea I 
think is critical.
    And then certainly, as you have heard in my remarks, the 
non-state actor expressed interests as demonstrated interests 
now in the use of CBRN. We haven't seen it on the ``N'' 
[nuclear] side of that equation, but that is certainly an area 
of concern. And again, they have expressed openly that that is 
an intent.
    Mr. Franks. Well, I think, you know, that is one of the 
main concerns some of us have, the vaunted agreement that we 
had with North Korea was supposed to eviscerate that danger. 
And of course, now we are facing it in spades.
    And it occurs to me then, looking at the two agreements, 
the one with North Korea, as opposed to the one with Iran, that 
the one with North Korea was a much stronger agreement. So, you 
have to forgive me for not being as calm about the whole thing 
as it may be.
    But let me shift to the second question. In terms of non-
nuclear threats, what keeps you up at night in that regard?
    And I will start again with you, Dr. Hopkins, and we will 
see if we can get to the end here.
    Dr. Hopkins. Well, thank you again. By far, the potential 
for the proliferation and use of biological threats is number 
one.
    Mr. Franks. In any particular area?
    Dr. Hopkins. Given what I know about our capability to 
provide protection against conventional threats, I would be 
concerned about genetic modifications of various potential 
threats.
    Mr. Myers. I concur with Dr. Hopkins completely. That is 
exactly my concern.
    Dr. Smith. And again, I think sort of twofold, there is 
both a current and a future threat. The future threat, I would 
concur with the gentlemen to my right. From a current threat, 
again, in the field, we have seen ISIL use of chemicals as 
weapons. That is certainly an area of concern for me from both 
the chemical and biological threat.
    Mr. Franks. Thank you all very much.
    Mr. Wilson. Thank you, Vice Chairman Franks.
    And we now proceed to Congressman Ryan Zinke of Montana.
    Mr. Zinke. Thank you, Mr. Chairman.
    And thank you for being here.
    I guess Dr. Smith, the launching of the two ICBMs 
[intercontinental ballistic missiles], do you see that as a 
violation of the U.N. [United Nations] resolutions?
    Dr. Smith. Specifically to North Korea's recent launch?
    Mr. Zinke. No, Iranian.
    Dr. Smith. Oh, absolutely. I mean, in both cases then I 
will say yes. Those are----
    Mr. Zinke. What was our action?
    Dr. Smith. So, my office is not responsible for the U.N. 
security resolutions.
    Mr. Zinke. Do you know of any U.S. action taken against 
that?
    Dr. Smith. I am sorry, I don't. But I can certainly get 
back to you on that.
    [The information referred to can be found in the Appendix 
on page 67.]
    Mr. Zinke. Well, Dr. Hopkins, you had mentioned one of your 
greatest fears is to evaluate testing and whether or not they 
are cheating or testing or inspections. Have you read the 
International Atomic Energy Agency and Iranian agreement in 
regards to testing protocol?
    Dr. Hopkins. No, I haven't.
    Mr. Zinke. Do you know of anyone that's in your department 
that has?
    Dr. Hopkins. Certainly.
    Mr. Zinke. By name?
    Dr. Hopkins. Our Nuclear Matters Office.
    Mr. Zinke. Are you in--so you think that the Congress 
should have a copy though? Because I don't know of anyone in 
Congress who has read it.
    Dr. Hopkins. Well, assuming we are talking about the same 
document----
    Mr. Zinke. I think we are.
    Mr. Hopkins [continuing]. You should have it.
    Mr. Zinke. I think so, too, because my concern is is that I 
agree with you, North Korea is a threat, I also agree that Iran 
is a threat. But it becomes even more of a threat if we don't 
take action of something.
    Now, we are all concerned about weapons of mass 
destruction. And I fought in the desert and I directly 
understand the threat. But North Korea is not tweeting the 
destruction of Israel, and North Korea is not tweeting the 
destruction of the ``great Satan,'' us. Iran is.
    And I don't think we have--do you think we have the 
inspection protocols that have some assurance that Iran is not 
skirting the agreement?
    Dr. Hopkins. I don't have enough knowledge about the 
protocols to judge the effectiveness.
    Mr. Zinke. Ms. Smith.
    Dr. Smith. So, I can't speak to that except to say that 
there is certainly a commitment from both the United States 
Department of Defense, intelligence community, and other 
partners to carefully monitor and verify. And the program, the 
joint program, is set up to support that, so we should identify 
issues of any abrogation.
    Mr. Zinke. Let me turn to the border, the southern border. 
How much of a threat do you think our southern border is for 
infiltration of weapons of mass destruction, particularly 
chemical?
    Dr. Hopkins.
    Dr. Hopkins. The potential threat is probably coincident, 
probably about as strong as the threat from bringing in illicit 
drugs. From what I understand, the networks that might be used 
would be ones that would capitalize on the existing 
infiltration routes.
    Mr. Zinke. Mr. Myers, do you share that same opinion?
    Mr. Myers. Yes, sir. When you look at the paths that these 
terrorist organizations use, they are using the same paths, 
whether they are moving illegal contraband, illegal drugs, 
human trafficking, or what have you. It is difficult to believe 
they would change their pattern of behavior to move another 
valuable asset, whether it be weapons of mass destruction or 
the like.
    So yes, I would agree. This is one of the reasons that we 
have spent an awful lot of time dealing with deeply buried 
targets and potential WMD pathways such as this. We have a 
specific R&D [research and development] effort that is focused 
on finding, detecting, and then potentially eliminating, if the 
choice is made, to deal with those types of threats.
    Mr. Zinke. And Dr. Smith, based on your knowledge of 
chemical, do you think it is more probable for homegrown 
chemical or do you see chemical being transported across border 
as a principal threat?
    Dr. Smith. So, inherently, because of the chemical 
industry, there are certainly precursor chemicals that are 
commonly found easily around the globe for normal use, so the 
dual-use question is certainly an issue there. So, I would say 
both are of concern. But to the extent to which we are aware 
and are working with our partners to make them aware of those 
concerns related to toxic chemicals that may be part of normal 
industry is very critical.
    Mr. Zinke. And do we have the same monitoring in Mexico as 
we do in the U.S. as far as the chemical companies?
    Dr. Smith. I can't speak to that. We can come back to you.
    [The information referred to can be found in the Appendix 
on page 67.]
    Mr. Zinke. Okay.
    I will yield the remaining part of my time. Thank you very 
much.
    Mr. Wilson. Thank you, Congressman Zinke.
    We will now proceed with a second round.
    Dr. Hopkins, the Blue Ribbon Study Panel on Biodefense 
noted that work dealing with cyber threats to pathogen security 
is nascent and that the United States is not yet well 
positioned to address cyber threats that affect the biological 
science and technology sectors. Can you describe the cyber 
threat that you see to biological security? How is the 
Department of Defense addressing these biological security 
cyber threats?
    Dr. Hopkins. Thank you very much. The cyber threats to the 
biological systems have to be handled through the process of 
defining hardness requirements, cyber hardness requirements, 
for the systems, the communication systems, the diagnostics, 
and devices that would be used.
    We have to start doing that. We have to build them in and 
basically get away from the legacy systems that may not be as 
strong in that area.
    Mr. Wilson. And I believe a vote is being called.
    One real quick question, Director Myers, before you run 
off. The Department of Defense played a large role in the U.S. 
Government response to Ebola. What do you think is an 
appropriate role for the Department of Defense in other global 
epidemics, such as Ebola? And as you depart, what role would 
you recommend the Department of Defense to play in the recent 
Zika virus as cited by Sheriff Nugent?
    Mr. Myers. Well, thank you, Mr. Chairman.
    When it comes to the Zika virus, obviously our colleagues 
at the Department of Health and Human Services have the lead. 
The Defense Threat Reduction Agency, parts of the chemical 
biological defense program that Dr. Hopkins oversees are 
standing by in support through the Secretary of Defense for 
Health Affairs at the Department of Defense. So, we are 
standing by to support.
    And on the larger issue of epidemics like Ebola, I believe 
that Congress has provided the Defense Threat Reduction Agency 
and others with some significant tools that can be brought to 
bear in these things.
    Specifically, I am referring to the Nunn-Lugar CTR program. 
That was the tool we used to help respond to the Ebola threat. 
You have given us the flexibility, you have given us the 
authorities to go out and do some incredible things in these 
places. I think that is going to continue to be a very 
effective tool. I think it is one that the Secretary and the 
President will turn to in some of these events and situations.
    And quite frankly, I think the program is going to be used 
for more and more of these types of things because of the 
authorities that Congress has provided us.
    Mr. Wilson. Well, thank you very much.
    And we now proceed to Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    The CWMD systems organization, as we touched upon, is 
developing a prototype situational awareness tool, 
Constellation, and, Dr. Hopkins, you spoke about this briefly 
in your opening statement, to provide a platform for sharing 
information across secured domains supporting various 
communities of interest. What efforts have been taken to 
eliminate duplication with other CWMD systems? And how is 
Constellation leveraging over large-scale data tools?
    Dr. Hopkins. Thank you very much for that. First of all, 
Constellation is using the most up-to-date technology possible 
in order to make sure that the very ambitious attempt to try to 
integrate and synthesize and report weapons of mass 
destruction-related activities can actually be accomplished. 
And it is focusing very, very heavily on identifying the 
specific user requirements to make sure that it is useful.
    If I could, since Defense Threat Reduction Agency is 
actually doing the development, I would like to ask Mr. Myers 
to add.
    Mr. Langevin. Certainly.
    Mr. Myers. Congressman, I know our time is short, but I 
will try and condense this.
    We are leveraging the DISA [Defense Information Systems 
Agency] big-data platform as one of the ways that we are kind 
of using the technology that is already in place to make sure 
that we are not duplicating efforts elsewhere.
    Similarly, we are working very closely with the Strategic 
Capabilities Office, part of the Office of the Secretary of 
Defense, to field Constellation on the next generation of the 
tactical cloud environment.
    So those are two specific steps that we are taking to 
utilize technology that is already in place and not duplicate 
something that has already been invested in and working well.
    Furthermore, I think the other important part of this is 
the requirements. Where did we get them? Who defined what 
Constellation will do and what won't it do?
    First and foremost, in 2013 STRATCOM put together a 
situational awareness Senior Warfighter Forum, something called 
a SWarF, brought all the combatant command, services, and 
potential customers of Constellation together. They compiled a 
good list of what they needed from this tool, what the tool 
that we were creating needed to provide to them if it was going 
to be useful. So, that was another way we went about defining 
that.
    And obviously since then, we have developed a concept of 
operation and an office under Dr. Hopkins has been providing us 
implementation guidance. And each and every time we put the 
implementation guidance together and every time we look at that 
CONOPs [concept of operations], we are constantly scanning the 
horizon. Because if there is no need to build a wheel and we 
can use someone else's we will.
    At this time, we believe we are taking full opportunity and 
advantage of technology that is already in place to put this 
necessary capability together.
    Mr. Langevin. Very good, thank you. Thank you for that.
    One of the stated goals of the Constellation CWMD 
situational awareness tool is to be able to share information 
among different organizations both within the United States 
Government and between our allies. How have the requirements 
for Constellation been developed and validated?
    Mr. Myers. Well, the first part of the answer would be the 
SWarF that I mentioned and brought all the combatant commands 
and the services together.
    But one comment I would make about your question is we are 
going to be operating on four different levels simultaneously. 
And we are talking about an open system where we can 
communicate with international organizations. We are talking 
about what we call in the Department of Defense our NIPRNET 
[Non-Secure Internet Protocol Router Network], as well as 
SIPRNET [Secret Internet Protocol Router Network] on the secret 
level and on the top-secret level as well.
    So one of the difficulties we are having or we are trying 
to overcome is, how do you operate on all four levels 
simultaneously to make sure this tool is useful, not only for 
Department of Defense, but our interagency partners, but also 
our international partners?
    I think one of the lessons learned from Ebola was the 
portal that we were able to put together, which is kind of an 
early version, a much smaller version of Constellation, getting 
our international partners, the World Health Organization, some 
of the national governments involved and all of us on the same 
page in terms of being able to share information and have it 
located in one place, turned out to be absolutely critical. It 
allowed us to coordinate the assistance quicker and much more 
effectively.
    Mr. Langevin. So, does it interact with or will it interact 
with World Health, as well as CDC, as well as Department of 
Defense assets?
    Mr. Myers. Yes, sir, but it would probably be on three 
different levels, though. I mean, obviously, on the open level, 
we would be able to work with our international partners. Our 
friends down at the Centers for Disease Control, we would be 
able to work with them on any of the three levels. And 
obviously within the Department of Defense, we would be able to 
do it from the unclassified level all the way to the top-secret 
level. And similarly not only with the CDC, but our partners at 
the Agency for International Development at the State 
Department.
    That is really what we expect to get out of this, that is 
what we are hoping for.
    Mr. Langevin. Okay, thank you.
    My time is expired. I appreciate the answers and your 
testimony.
    Again, Mr. Myers, wish you well.
    And thank you all for your service.
    I yield back, Mr. Chairman.
    Mr. Wilson. And thank you, Congressman Langevin.
    It is very fitting that we would end on a high note with 
Congressman Rich Nugent.
    [Laughter.]
    Mr. Nugent. Oh, Mr. Chairman, you are always a joy. I 
appreciate it.
    You have got to have a little levity, folks.
    As we talk about CBRN, and particularly as we work with our 
allies in Europe now, they are obviously facing huge migration 
issues coming across. Are our allies, our NATO [North Atlantic 
Treaty Organization] allies in particular, are they up to speed 
in regards to CBRN, in regards to dealing with those issues?
    Dr. Smith. So, sir, I will address that first, and then 
perhaps, Dr. Hopkins, you might want to add in. But we work 
closely, so through the OSD [Office of the Secretary of 
Defense] Policy Office, work closely both in very important 
bilateral engagements, as well as some multilateral engagements 
with our partners, and then certainly NATO in and of itself is 
an important part of that equation as well.
    So I would say in some areas we offer more strengths than 
they do, and in other areas they have strengths that we don't. 
And I mean that both broadly and both to the defense community 
itself, but also, in some cases, academia and the NGO [non-
governmental organization] and scientific communities in the 
countries from which those partners draw often have strengths 
that support ours.
    So where I will turn it over is we work at both executive 
levels, sort of senior steering groups, and then individual 
issue managers or working groups, where on an annual basis, 
depending on the topical area, we will set priorities for what 
we believe are the current or emerging areas and then----
    Mr. Nugent. Well, my question is really, do we have 
protocols in place if we are today in Europe and we are 
responding to a crisis with Polish troops, do we have cross-
training in regards to CBRN?
    Mr. Myers. Congressman, great example. We have had specific 
training with the Polish military forces just in the last 18 
months, specifically through the chem/bio defense program, 
through our S&T efforts there.
    So yes, I mean, I don't think it would be fair to 
characterize it as uniform across. Dr. Hopkins and I and Dr. 
Smith spend an awful lot of time with the United Kingdom, our 
relationship there, as well as colleagues in France. We have a 
special relationship in terms of CBRN cooperation with NATO.
    So yes, we have got deep relationships. I would not say it 
is uniform and even across the board, there are pros, there are 
cons, there are heights, there are lows. But I think we have 
got good, strong relationships with all of our partners who 
have specific and significant capabilities in this area.
    Mr. Nugent. Yes, sir?
    Dr. Hopkins. If I could just add, in addition to the 
partnerships and the agreements, we also do a burden sharing, 
to an extent, in the research and development area for chemical 
and biological defensive measures with a number of nations.
    Mr. Myers. And to take that one step further, many of the 
nations that I have mentioned make significant contributions to 
the Nunn-Lugar CTR program. When we are doing nonproliferation 
or counter-proliferation programs with foreign partners, our 
allies in Europe and elsewhere may not be able to duplicate or 
do the training themselves, but they will make monetary 
contributions that the Nunn-Lugar CTR program can take and 
funnel into the program to offset some of the costs to the 
Department of Defense. And that is another way we have really 
built those partnerships. I have specifically Germany in mind 
in a number of cases over the last 12 to 18 months.
    Mr. Nugent. Well, you know, my concern obviously is on the 
battlefield, if exposed to some kind of a biological or 
chemical attack, if we have the antidote or whatever it may be 
to treat or the Polish troops have it and we don't, can we 
share that?
    Dr. Hopkins. Thank you for the question. Actually, we can 
and we do.
    Mr. Nugent. Okay.
    Dr. Hopkins. In fact, with NATO, we actually share a common 
challenge standard to make sure that our masks, suits, gloves, 
individual protection, collective protection, decontaminants 
all can meet the same standards.
    Mr. Nugent. Very good.
    Well, I appreciate your time, and I appreciate your 
answers. And thank you very much.
    And I yield back my remaining time, Mr. Chairman.
    Mr. Wilson. And thank you very much, Congressman Nugent.
    And again, thank each of you for being here today.
    And Director Myers, best wishes for the future.
    And I share the concern of Congressman Zinke, and that is 
that we are facing irrational enemies who truly believe in a 
policy and a course of death to America, death to Israel. And 
so, your agencies, your departments have never been more 
important.
    However, in a bipartisan manner, we can work together to 
protect American families.
    And with that, we are adjourned.
    [Whereupon, at 4:43 p.m., the subcommittee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                           February 10, 2016
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 10, 2016

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 10, 2016

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MR. LANGEVIN

    Mr. Myers. DTRA funds research in many areas highlighted by the 
Blue Ribbon Study Panel on Biodefense in its October 2015 report, 
including medical countermeasures, biosurveillance, decontamination and 
remediation, and coordination with civil authorities. DTRA does not 
fund research or measures to strengthen cybersecurity of systems with 
biological pathogen information, and does not maintain or manage these 
systems. DTRA concurs with the Blue Ribbon Panel that cybersecurity 
measures are important in safeguarding this information. DTRA personnel 
are familiar with the particular sensitivity of information related to 
biological pathogens and receive regular training in cybersecurity. We 
require physical protective measures for our electronic devices, 
monitor our systems for intrusion on a 24x7 basis, and continually 
upgrade our cybersecurity measures.   [See page 11.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. ZINKE
    Dr. Smith. Although Iran does not possess an ICBM, it has recently 
tested medium-range ballistic missiles (MRBMs). Following these tests, 
the U.S. Treasury Department, pursuant to E.O. 13382, designated 11 
individuals and entities for sanctions involved in procurement on 
behalf of Iran's missile program. DOD will continue our efforts to 
address all threats posed by Iran, including the ballistic missile 
threat, through our partnerships and force presence in the region.   
[See page 16.]
    Dr. Smith. DOD does not have a role in the regulatory regimes of 
commercial industry of our foreign allies and partners. In the event of 
an incident releasing hazardous materials in Mexico, particularly an 
incident with the potential for spillover into the United States, the 
Department of Defense is prepared to support a U.S. Government effort 
to help the Government of Mexico in its response.   [See page 18.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 10, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. WILSON

    Mr. Wilson. The Army investigation into the inadvertent shipments 
of anthrax concluded that ``no individual or institution was directly 
responsible,'' but noted ``several findings related to scientific, 
institutional, and individual failures may have been contributing 
factors.''
    Can you give a status of corrective actions that are being put in 
place to prevent this type of error from occurring again?
    Dr. Hopkins.      
    <bullet>  Army established a ``Biosafety Task Force'' led by 
Headquarters Department of the Army, consisting of over 50 senior 
scientists and leaders from Army, Navy, and Air Force organizations to 
comprehensively address the direction given by the Deputy Secretary of 
Defense and guidance in the OSD Comprehensive Review Report.
        <bullet>  Sub-working groups were chartered to address: (1) 
        Development of a Department of Defense (DOD) standard operating 
        procedure (SOP) for the inactivation of anthrax spores (once 
        the science basis has been established); (2) New processes and 
        procedures for the Critical Reagents Program to better ensure 
        safety, consistency, and quality; (3) Designation of the 
        Secretary of the Army as the DOD Executive Agent for the 
        Biological Select Agents and Toxins (BSAT) Biosafety function; 
        (4) Examination of chains of command over BSAT holding labs; 
        (5) Establishment of a DOD standing Peer Review Panel to review 
        and approve SOPs and protocols dealing with BSAT; and (6) 
        Examination of BSAT related workload in DOD.
        <bullet>  The Army Office of the Surgeon General has been 
        designated Executive Agent (EA) Responsible Official (RO) for 
        biosafety.
        <bullet>  The Army Biosafety Directive, which establishes 
        policy and describes the roles, responsibilities, and missions 
        and functions for the DOD BSAT Biosafety Program, has been 
        drafted. Formal staffing is underway.
    <bullet>  On 15 January, 2016, the Department of the Army released 
the Dugway Anthrax AR-15-6 Report.
        <bullet>  The 15-6 investigation team identified actions for 
        the Secretary of the Army's consideration: directing additional 
        research to address existing gaps in scientific knowledge, 
        making institutional changes aimed at reducing the overall risk 
        associated with working with biological materials, and holding 
        certain personnel at Dugway Proving Ground (DPG), including the 
        leadership, accountable for their failures to eliminate the 
        culture of complacency and ultimately prevent additional 
        mishaps from occurring in the future.
        <bullet>  An effort is underway to address the gaps in 
        scientific knowledge related to inactivation and viability 
        testing.
        <bullet>  The preponderance of the evidence supports that no 
        individual or institution was directly responsible for the 
        unauthorized shipment of low concentrations of viable B. 
        anthracis.
    Mr. Wilson. Are all of the investigation recommendations going to 
be implemented? What process will be used to ensure that any findings 
implemented are done effectively? Answer:
    Dr. Hopkins.      
    <bullet>  Multiple reviews and investigations were undertaken by 
OSD and by the Army Biosafety Task Force to determine the root cause of 
the anthrax incident. All of the recommendations from these reviews 
have been addressed and either the action was taken or a path forward 
was established that will be tracked to completion by the EA RO.
    <bullet>  The EA RO is responsible for ensuring that corrective 
actions, once implemented, are effective and also for monitoring their 
continued effectiveness as the biosafety program evolves.
    Mr. Wilson. Given the significant increase in the number of 
facilities handling these select agents and deadly pathogens over the 
last 10-15 years, what efforts is the Department taking to determine if 
work can be consolidated to reduce the facilities necessary?
    Dr. Hopkins. The Deputy Secretary of Defense has tasked the 
Secretary of the Army with assessing the optimal distribution of 
research, development, and production activities at the laboratories in 
support of the Chemical and Biological Defense Program mission. As a 
result, the Army Biosafety Task Force formed a working group to 
determine the optimal command and control alignment of Army 
laboratories and to determine the optimal workload distribution across 
Service laboratories. Based on working group recommendations, the Army 
will move the Life Sciences Division of the West Desert Test Center 
under the command and control of the Edgewood Chemical and Biological 
Center. Other recommendations to consolidate work among DOD 
laboratories are under further review.
    Mr. Wilson. What is the DOD's plan to ensure that the medical 
countermeasures advanced manufacturing facility is fully utilized?
    Dr. Hopkins. The DOD plan is to coordinate and utilize the Advanced 
Development and Manufacturing (ADM) capability based on the needs of 
the Joint Force. DOD intends to establish the Medical Countermeasures 
(MCM) Advanced Development and Manufacturing (ADM) as a potential 
subcontractor for all DOD medical countermeasure efforts. MCM 
developers will have the opportunity to use the capability, either in 
its entirety or in part, to fulfill contracts with the DOD Chemical and 
Biological Defense Program (CBDP). Requirements and capabilities will 
be assessed by the Government on a case by case basis for each medical 
countermeasure program prior to award, and the decision regarding the 
extent to which the MCM ADM is employed will be made on the basis of 
``best value to the Government.'' Although the MCM ADM has been 
designated by the Deputy Assistant Secretary of the Army (Procurement) 
as a ``preferred source'', medical countermeasure developers with 
strong in-house manufacturing capabilities can choose whether to use 
the MCM ADM. However, the MCM ADM will provide better sustainment for 
DOD MCM efforts because it will avoid the need for multiple 
manufacturing sites to be used at small scale.
    Mr. Wilson. Will the Department be requesting O&M funds to sustain 
the facility?
    Dr. Hopkins. No. The intent is for the DOD MCM ADM to be sustained 
through use by the individual CBDP MCM development efforts.
    Mr. Wilson. Has a roadmap been developed to plan utilization of 
this facility?
    Dr. Hopkins. Yes.
    Mr. Wilson. Can you discuss any potential utilization by 
Interagency partners?
    Dr. Hopkins. Once fully operational, the DOD MCM ADM facility will 
be made available for additional production capacity in times of 
emergency to meet the needs of the Department of Health and Human 
Services (DHHS). DOD will work through the Public Health Emergency 
Medical Countermeasures Enterprise (PHEMCE) to coordinate MCM 
development, production, and availability across the Interagency. DOD's 
coordination efforts have been assessed favorably by the Government 
Accountability Office (GAO): ``DOD's efforts to coordinate with the 
Department of Health and Human Services and the Department of Homeland 
Security align with best practices GAO has identified for collaborating 
across agency boundaries''--GAO 14-442
    Mr. Wilson. Specifically, how can the DOD's medical countermeasures 
advanced manufacturing facility be utilized to respond to emerging 
threats?
    Dr. Hopkins. The DOD MCM ADM will be available for use by DOD's 
medical countermeasure programs to conduct research to counter emerging 
threats. This state-of-the-art facility will develop and manufacture 
MCMs for the DOD faster and more efficiently than most current 
production processes. In the event of an emerging threat (Ebola-like 
scenario) where the Department had potential candidates in the 
pipeline, these candidates could use the ADM in an attempt to speed up 
the delivery time. The disposable, single-use manufacturing equipment 
will allow for rapid configuration, which reduces downtime between 
production runs. The facility's flexibility will enable the capability 
to rapidly assess potential MCM candidates.
    Mr. Wilson. Can you give us a quick update on the timeline for U.S. 
Chemical Weapons Destruction Operations at the last two remaining sites 
in Colorado and Kentucky? Are we meeting our International Treaty 
Obligations?
    Dr. Hopkins. The Pueblo Chemical Agent-Destruction Pilot Plant 
located in Pueblo, Colorado is scheduled to begin chemical weapons 
destruction operations in or before June 2016, and complete operations 
by November 2019. The Blue Grass Chemical Agent-Destruction Pilot Plant 
located in Richmond, Kentucky is scheduled to begin chemical weapons 
destruction operations by April 2020, and complete operations by 
September 2023.
    The United States is meeting our obligations to destroy our 
chemical weapons stockpile as required by the Chemical Weapons 
Convention. We remain fully committed to safely completing chemical 
weapons destruction by the December 31, 2023, congressionally-mandated 
destruction deadline.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. What is DTRA doing to leverage existing information 
management systems, such as the NGB's Civil Support Team (CST) 
Information Management System (CIMS), to ensure such prior systems 
investments are efficiently utilized by follow on forces like the NGB's 
Chemical, Biological, Radiological, Nuclear, and High explosive 
Enhanced Response Force Package (CERFP) and Homeland Defense Response 
Force (HRF). Do you have an investment plan and timeline for deployment 
of this system? How will systems like CIMS be incorporated into the 
NGB's overall information management architecture and have you seen an 
improvement in the timeliness and quality of information sharing 
through use of these systems?
    Dr. Hopkins. Although specific questions related to the NGB's CIMS 
are best answered by the NGB's Combating Weapons of Mass Destruction 
Division, DTRA does have a strategic partnering understanding with the 
NGB to support its Civil Support Teams to fill any gaps. In DTRA's role 
as the lead organization for the National Countering WMD Technical 
Reachback Enterprise, the Operational Information Management System 
(OIMS) provides web-enabled operational work space to include secure 
CST portal pages, Request For Information processing and management, 
team status reporting, and other capabilities and associated training. 
DTRA provides support for all 57 CST's as well as the various CERFPs, 
and some discussions with the HRF.
    DTRA continues to provide software (e.g, Mobile Field Kit) and 
modeling capabilities (e.g., Hazard Prediction and Assessment 
Capability) to the NGB's information system configuration manager. DTRA 
also provides technical conditions in support of integration of the 
software into the CST communications architecture and potential 
integration into future NG CIMS. Pilot CST teams have demonstrated a 
reduction in the time it takes to complete certification evaluations by 
over 50% simply by employing Mobile Field Kit over conventional 
methods.
    Mr. Shuster. In order to ensure the most efficient and transparent 
use of taxpayer monies, it is critical the funds are spent on mission-
centric activities. Would you agree that excessive administrative, 
overhead and/or pass through fees in excess of 10% for ``program 
management'' add nothing more than unnecessary extra costs? Would you 
also agree that administrative costs need to be minimal so that the 
majority of the money will be spent on the best possible product for 
the services in building, programming, fielding, testing, implementing, 
and providing technical expertise and not wasting government or tax 
payer dollars on paying high administrative costs and adding additional 
costs and layers of bureaucracy? Would you support an administrative 
cap of 10% being imposed for pass through entities?
    Dr. Hopkins. Oversight of administrative costs in contracting is 
not an ASD(NCB) function, so we received input from the Director of 
Defense Procurement and Acquisition Policy (DPAP), Ms. Claire Grady, 
who shares the following: The Department is always concerned with 
excessive administrative, overhead and/or pass-through fees. It is 
imperative that the acquisition team determine the appropriate amount 
of administrative, overhead and pass-through required for each 
contracted capability, as well as an appropriate compensation for such. 
Such costs should be as minimal as possible while still ensuring 
effective program management. Capping these costs at any arbitrary 
amount limits the acquisition team's capabilities to evaluate and 
appropriately manage risk contained within these categories as the 
vendor strives to manage and provide the required capability in 
accordance with the contract.
    Mr. Shuster. What is DTRA doing to leverage existing information 
management systems, such as the NGB's Civil Support Team (CST) 
Information Management System (CIMS), to ensure such prior systems 
investments are efficiently utilized by follow on forces like the NGB's 
Chemical, Biological, Radiological, Nuclear, and High explosive 
Enhanced Response Force Package (CERFP) and Homeland Defense Response 
Force (HRF). Do you have an investment plan and timeline for deployment 
of this system? How will systems like CIMS be incorporated into the 
NGB's overall information management architecture and have you seen an 
improvement in the timeliness and quality of information sharing 
through use of these systems?
    Mr. Myers. Although specific questions related to the NGB's CIMS 
are best answered by the NGB's Combating Weapons of Mass Destruction 
Division, DTRA does have a strategic partnering understanding with the 
NGB to support its Civil Support Teams to fill any gaps. In DTRA's role 
as the lead organization for the National Countering WMD Technical 
Reachback Enterprise, the Operational Information Management System 
(OIMS) provides web-enabled operational work space to include secure 
CST portal pages, Request For Information processing and management, 
team status reporting, and other capabilities and associated training. 
DTRA provides support for all 57 CST's as well as the various CERFPs, 
and some discussions with the HRF.
    DTRA continues to provide software (e.g, Mobile Field Kit) and 
modeling capabilities (e.g., Hazard Prediction and Assessment 
Capability) to the NGB's information system configuration manager. DTRA 
also provides technical conditions in support of integration of the 
software into the CST communications architecture and potential 
integration into future NG CIMS. Pilot CST teams have demonstrated a 
reduction in the time it takes to complete certification evaluations by 
over 50% simply by employing Mobile Field Kit over conventional 
methods.
    Mr. Shuster. In order to ensure the most efficient and transparent 
use of taxpayer monies, it is critical the funds are spent on mission-
centric activities. Would you agree that excessive administrative, 
overhead and/or pass through fees in excess of 10% for ``program 
management'' add nothing more than unnecessary extra costs? Would you 
also agree that administrative costs need to be minimal so that the 
majority of the money will be spent on the best possible product for 
the services in building, programming, fielding, testing, implementing, 
and providing technical expertise and not wasting government or tax 
payer dollars on paying high administrative costs and adding additional 
costs and layers of bureaucracy? Would you support an administrative 
cap of 10% being imposed for pass through entities?
    Mr. Myers. DTRA concurs with the input received from the Director 
of Defense Procurement and Acquisition Policy (DPAP), Ms. Claire Grady, 
who shares the following: The Department is always concerned with 
excessive administrative, overhead and/or pass-through fees. It is 
imperative that the acquisition team determine the appropriate amount 
of administrative, overhead and pass-through required for each 
contracted capability, as well as an appropriate compensation for such. 
Such costs should be as minimal as possible while still ensuring 
effective program management. Capping these costs at any arbitrary 
amount limits the acquisition team's capabilities to evaluate and 
appropriately manage risk contained within these categories as the 
vendor strives to manage and provide the required capability in 
accordance with the contract.
    Mr. Shuster. What is DTRA doing to leverage existing information 
management systems, such as the NGB's Civil Support Team (CST) 
Information Management System (CIMS), to ensure such prior systems 
investments are efficiently utilized by follow on forces like the NGB's 
Chemical, Biological, Radiological, Nuclear, and High explosive 
Enhanced Response Force Package (CERFP) and Homeland Defense Response 
Force (HRF). Do you have an investment plan and timeline for deployment 
of this system? How will systems like CIMS be incorporated into the 
NGB's overall information management architecture and have you seen an 
improvement in the timeliness and quality of information sharing 
through use of these systems?
    Dr.  Smith. I concur in Mr. Myers' response.
    Mr. Shuster. In order to ensure the most efficient and transparent 
use of taxpayer monies, it is critical the funds are spent on mission-
centric activities. Would you agree that excessive administrative, 
overhead and/or pass through fees in excess of 10% for ``program 
management'' add nothing more than unnecessary extra costs? Would you 
also agree that administrative costs need to be minimal so that the 
majority of the money will be spent on the best possible product for 
the services in building, programming, fielding, testing, implementing, 
and providing technical expertise and not wasting government or tax 
payer dollars on paying high administrative costs and adding additional 
costs and layers of bureaucracy? Would you support an administrative 
cap of 10% being imposed for pass through entities?
    Dr.  Smith. Given that my office does not have responsibilities for 
program management, I defer to ASD Hopkins' sentiment with respect to 
the program-management cap. My understanding is that a Services 
Requirements Review Board (SRRB) is currently being conducted to 
identify the true service contractual requirements. This effort should 
afford additional opportunities for efficiencies and reductions.

                                  [all]
                                  
                                  
                                  
                                  
</pre></body></html>
